SDCCU SIGNATURE REWARDS PROGRAM TERMS AND CONDITIONS
The SDCCU® Signature Rewards Program (the “Program”) Terms and Conditions are separate from the
terms of your San Diego County Credit Union (“SDCCU”) Consumer Credit Card Agreement. However, any
claim arising from or relating to participation in the Program is subject to the arbitration provisions of the
Credit Card Agreement, which require that any and all disputes are subject to binding arbitration. Changes
to the Program may happen at any time without notice and without restriction or penalty. When any change
is made, we will post revisions on the SDCCU website and on the Program website. For the most current
list of rewards available through the Program (“Rewards”), point values and to redeem points for Rewards,
visit the secure SDCCU Signature Rewards Program redemption website. To access the redemption
website, log into your SDCCU Internet Branch account, select Self Service, then select SDCCU Signature
Rewards Enrollment/Redemption/Point Verification.
This Program may be modified, suspended or cancelled and the redemption value of already accumulated
points may be changed at any time without notice and without restriction or penalty. SDCCU reserves the
right to change the point accrual and retention period from time to time. Changes to the Program may
include, but are not limited to, modifications which (i) increase or decrease the point value for every Net
Purchase dollar charged and (ii) expire points based on the point term, age and expiration date of the
selected option(s). You will be notified of point accrual and/or point expiration Program changes. Contact
SDCCU for details on applicable accumulation options which are then in effect. This Program is void where
prohibited or restricted by federal, state or local law. You are responsible for any federal, state or local
income, sales, use or other taxes or gratuities.
The Program is administered by The Members Group, an independent company that is not affiliated with
SDCCU. To protect our members’ privacy, SDCCU only works with companies that agree to maintain strong
confidentiality practices. We limit the type and use of information shared. In addition, these companies are
contractually restricted from disclosing the information to other third parties. The Members Group assists
SDCCU with administration of the Program, including maintaining and servicing points for Rewards and
fulfilling your Reward redemptions. Neither SDCCU nor The Members Group shall be liable for any bodily
harm and/or property damage, or consequential damages that may result from participation in the Program
or of any provider's provision of or failure to provide any of the services or benefits of the Program, for any
reason. Neither SDCCU nor The Members Group is responsible for disputes between you and its
employees or any third party Rewards recipients relating to points redemption and Rewards distribution.
ELIGIBILITY
Program eligibility is restricted to individuals who maintain a SDCCU Signature Rewards Visa credit card
account issued by SDCCU in good standing. You must have a valid address within the United States. Points
in the Program may not be used with any other offer, promotion or discount, cannot be earned from or
transferred to, any other charge, credit card or other accounts. SDCCU reserves the right to approve, deny
or revoke your participation in the Program. In the event your participation is revoked, your points will be
forfeited. Questions as to what constitutes Program eligibility or a qualifying transaction, as well as any
exceptions, are at the sole discretion of SDCCU. Fraud or abuse relating to the accrual of points or
redemption of Rewards may result in forfeiture of accrued points as well as cancellation of membership in
the Program.
EARNING POINTS
You will earn two (2) Rewards Points (each a “Point”) for each $1 of Net Purchases on the enrolled SDCCU
account. “Net Purchases” mean purchases of goods and services made by you or any authorized user of
such account minus any returns or refunds. You will receive a one-time bonus award of 10,000 Points if net
purchases totaling $3,000 or more are made during the first 90 days following the Enrollment Date.
“Enrollment Date” is defined as the first business day in which you are approved as a Program member.
After qualifying, please allow 6 to 8 weeks for bonus Points to post to your account. Amounts currently in
dispute and purchases made in violation of law or the terms governing your credit card account will not earn
Points. To be eligible for this bonus offer, account must be open and not in default at the time of fulfillment.
Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 10.21.16 ~RGNAME~

When a purchase or transaction is not a whole dollar amount, any fraction will be rounded down to the
nearest whole dollar.
Your statement will normally include the number of Points earned, subject to adjustment as provided for in
these Terms and Conditions. Points will be deducted from your current total of Points earned for
corresponding retail purchase returns posted to your account. Your account may be charged for the
difference in the event you have already redeemed unearned Points.
You do not earn Points on balance transfers, convenience checks, cash advances or unauthorized charges,
unless specified otherwise. Points are not earned for fees of any kind, such as finance charges, late
payment fees, annual fees, balance transfer fees, cash advance fees or any charges you refuse to pay.
Changes made to the above list are at the sole discretion of SDCCU.
Points are considered earned when they are posted to the redemption system. Your Points balance will be
updated monthly. Points may take up to 45 days to be posted following a qualifying purchase. SDCCU
reserves the right to verify and adjust Points at any time prior to or following posting and redemption. Points
will be awarded and can be redeemed for Rewards only if you maintain the account in good standing.
SDCCU has the right not to award Points if the account is not in good standing.
POINT REDEMPTION
The Reward Headquarters telephone number is (877) 205-1867 and may be used for redemptions or
inquiries. Customer Care Representatives are available to redeem Points for Rewards and answer
redemption-related questions from 6 a.m. to 6 p.m. Pacific Time.
You also may redeem Points for Rewards and check point balances online through the Signature Rewards
Program redemption website. Redeemed Rewards are not refundable, replaceable or transferable for cash,
credit, other Rewards or Points under any circumstances. SDCCU and participating merchants are not
responsible for replacing lost, stolen or mutilated Gift Cards/Certificates or tickets. Rewards Gift
Cards/Certificates, gift cheques, checks or currency certificates may not be re-sold and are valid through
the expiration period and cannot be extended beyond the expiration date. All Rewards are subject to
availability and other restrictions may apply. All Rewards are subject to the Terms and Conditions of each
participant’s offer materials.
Points will expire on December 31st at 11:59 p.m. Eastern Standard Time of the fifth year after the
year they were earned. For example, Points earned November 1, 2016 will expire December 31, 2021.
Points redeemed and expired Points will be based on a first-in, first-out process. Points earned are not
transferable, have no cash value and cannot be used as payment of obligations to SDCCU.
For additional Terms and Conditions, visit the Signature Rewards Program redemption website.
CONSENT TO CONTACT
You consent to receiving calls or texts from SDCCU for any purpose (including this Program, servicing
generally, fraud alerts, debt collection, telemarketing, etc.) on any phone number you provide or that
otherwise reaches you, including via automatic telephone dialing system and/or artificial or pre-recorded
voice. You understand you do not have to agree to receive such calls on a cell phone number as a condition
of doing business with SDCCU, in which case you will only provide a land line number.
OTHER CONDITIONS
SDCCU AND THE MEMBERS GROUP SPECIFICALLY PROVIDE NO WARRANTY WHATSOEVER
REGARDING ANY OF THE REWARDS, PRODUCTS OR SERVICES THAT YOU MAY REDEEM UNDER
THIS PROGRAM, THE PERFORMANCE OR NONPERFORMANCE OF ANY SUPPLIERS OF THE
REWARDS, OR THAT ANY OF THE REWARDS, PRODUCTS OR SERVICES REDEEMED WILL BE
SUITABLE FOR YOUR PURPOSES. SDCCU AND THE MEMBERS GROUP EXPRESSLY DISCLAIM
ALL WARRANTIES REGARDING THE REWARDS, PRODUCTS OR SERVICES, WHETHER EXPRESS,
Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 10.21.16 ~RGNAME~

IMPLIED OR STATUTORY, INCLUDING WITHOUT LIMITATION ANY IMPLIED WARRANTIES OF
MERCHANTABILITY, FITNESS FOR A PARTICULAR PURPOSE, NON-INFRINGEMENT OF THIRD
PARTY RIGHTS, OR BASED ON COURSE OF CONDUCT OR TRADE CUSTOM OR USAGE. SDCCU
AND THE MEMBERS GROUP SHALL NOT BE LIABLE FOR ANY ACTUAL, DIRECT, INDIRECT,
SPECIAL, INCIDENTAL, CONSEQUENTIAL OR EXEMPLARY DAMAGES, WHETHER FORESEEABLE
OR NOT, THAT ARE IN ANY WAY RELATED TO ANY INJURIES OR PROPERTY DAMAGES CAUSED
BY THE REWARDS, PRODUCTS OR SERVICES OR ANY REWARDS' SUPPLIERS' FAILURE TO
PROVIDE ANY REWARDS, PRODUCTS OR SERVICES, AND/OR RELATED TO THESE TERMS AND
CONDITIONS, THE BREACH THEREOF, THE USE OR INABILITY TO USE ANY OF THE REWARDS,
PRODUCTS OR SERVICES REDEEMED OR TO BE REDEEMED, YOUR PARTICIPATION IN THE
PROGRAM, ANY TRANSACTIONS RESULTING FROM THESE TERMS AND CONDITIONS, LOSS OF
GOODWILL OR PROFITS, LOST BUSINESS HOWEVER CHARACTERIZED AND/OR FROM ANY
OTHER CAUSE WHATSOEVER.
TRADEMARK
San Diego County Credit Union, SDCCU, the SDCCU logo, and other SDCCU marks are trademarks of
San Diego County Credit Union and may be registered. Other trademarks and trade names appearing on
the website with respect to any specific merchant Rewards are those of their respective owners.

Voted BEST Credit Union – San Diego Union-Tribune Readers Poll
PO Box 261209 • San Diego, CA 92196-1209 • (877) 732-2848 • sdccu.com
Federally insured by NCUA
REV. 10.21.16 ~RGNAME~

